HHS/OIG-AUDIT--Administrative Costs Incurred Under the Medicare Program
by Blue Cross of California for the period October 1, 1990 through September
30,
1994 (A-09-96-00054)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Incurred Under the Medicare Program by
Blue Cross of California for the Period October 1, 1990 through September 30,
1994," (A-09-96-00054)
August 15, 1996
Complete
Text of Report is available in PDF format (2.15 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Conrad & Associates, L.L.P., Certified Public Accountants, under contract
with the U.S. Department of Health and Human Services (DHHS), performed a financial
and compliance audit of expenditures claimed by Blue Cross of California (BCC)
related to administration of the Medicare Part A program. The audit covered
Final Administrative Cost Proposals (FACP's) for the Medicare program submitted
by BCC for the period of October 1, 1990 through September 30, 1994. Also audited
were additional costs amounting to $675,787 for fiscal year (FY) 1991 (October
1, 1990 through September 30, 1991), $1,465,060 for FY 1992 (October 1, 1991
through September 30, 1992), $866,087 for FY 1993 (October 1, 1992 through
September 30, 1993) and $136,509 for FY 1994 (October 1, 1993 through September
30, 1994) that were allocated to the Medicare program but not claimed on the
FACP's because inclusion of those costs would cause the BCC approved administrative
budget to have been exceeded.
The audit included such tests necessary to assure that costs charged to Medicare
were allowable and allocable and were provided in an economic and efficient
manner. The audit efforts tested the allowability of those administrative costs
as well as their allocability to the Medicare program using the Medicare agreements,
the Federal Acquisition Regulation, and appropriate cost accounting standards
and generally accepted accounting standards as guiding criteria.
For the period, BCC reported Medicare Part A program administrative costs
of $122,275,135. Of these costs, we have questioned $1,653,079 as follows:
$244,617 for FY 1991; $111,106 for FY 1992; $1,210,837 for FY 1993; and $86,519
for FY 1994. The recommended settlement amounts presented in Schedule C do
not include as an offset the amounts allocated to the Program but not claimed
on the FACP's for FYs 1991 through 1994. HCFA would be responsible for approving
any offsets. The following is a summarization of our findings:
Return on Investment: Costs of $1,261 for FY 1994 are questioned
because BCC overclaimed return on investment (ROI) reimbursements. The overclaim
resulted from an error made by BCC in the calculation of building depreciation
and the inclusion of certain non-Medicare assets in the base used in the
ROI calculation.
FACP Preparation Errors: Costs of $32,513 and $4,918 for FYs 1993
and 1994, respectively, are questioned because certain cost centers were
overstated due to errors made by BCC while preparing spreadsheets used in
the preparation of the FACP's.
Intercompany Cost Allocation Error: Costs of $857,201 for FY 1993
are questioned because an Intercompany Cost Allocation cost center was erroneously
excluded from the spreadsheet used in the preparation of the FACP.
Duplicated FACP Adjustment: Costs of $236,262 for FY 1993 are questioned
because an adjustment to include costs related to a productivity investment
project were erroneously added twice during the preparation of the FACP.
Cost Centers Not Benefitting the Medicare Program: Costs of $48,356
and $3,822 for FYs 1992 and 1993, respectively, are questioned because the
nature and activities of certain cost centers allocating costs to Medicare
did not provide a benefit to the Medicare program.
Reported Costs Not Supported by Underlying Accounting Records: Costs
of $127,996 for FY 1991 are questioned because the FACP reported costs in
excess of those reflected in the underlying Medicare accounting cost records.
Unsupported Costs: Costs of $28,282 for FY 1991 are questioned because
supporting documentation was not provided.
Adjustment to Limit Building Lease Costs to That of the Cost of Ownership
Excluded from FACP: Costs of $79,229 for FY 1991 are questioned because
a building lease cost adjustment used to limit administrative costs claimed
to that of the costs of ownership was understated.
Excess of Executive Compensation Increases Over the ECI Allocated to
Medicare: Compensation increases given to nine BCC executives during
our review period were determined not to be reasonable when compared to
the Employment Cost Index (ECI) developed by the United States Department
of Labor for the same period. Of the excess compensation costs identified,
$233,239 were allocated to Medicare and are questioned as follows: $9,110
for FY year 1991; $62,750 for FY 1992; $81,039 for FY 1993; and $80,340
for FY 1994.
For a complete discussion of these findings, refer to the Findings and Recommendations
section of this report.
A draft copy of the report was provided to BCC requesting their response to
the various findings noted in the report. The responses where appropriate,
have been included in the body of the report, and included in their entirety
as Appendix A of the final report. BCC in their response accepted the audit
results with the exception of the questioned amount of $233,239 for "Excess
of Executive Compensation Increases Over The ECI Allocated to Medicare" both
from the standpoint of the actual calculation and the concept of applying the
ECI developed by the United States Department of Labor. Because the total amount
questioned in the report ($1,653,079) was substantially less than the amount
BCC did not charge to Medicare due to budget limitations ($3,143,443), BCC
elected not to pursue any further effort to locate documentation that may have
supported some of the questioned items.